No. 19-511
IN THE SUPREME COURT OF THE UNITED STATES
FACEBOOK, INC.,
v.
NOAH DUGUID, ET AL.,

Petitioner,

Respondents.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5(b), I certify that the accompanying
Respondent Noah Duguid’s Supplemental Brief has been served on this date on all
parties required to be served, by electronic (email) delivery as well as by the mailing
of a paper copy of the brief. A paper copy has also been sent by overnight delivery to
the Court. Service has been made upon the following:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
paul.clement@kirkland.com
202-389-5000
Counsel of Record for Petitioner Facebook, Inc.
Jeffrey Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217
Counsel of Record for Respondent United States
Executed on July 8, 2020.

SCOTT L. NELSON
PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
202-588-1000

